C@OQCKLE

2311 Douglas Street L al Brief E-Mail Address:
Omaha, Nebraska 68102-1214 € 8 Est. 19 5 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-831

ADAM JARCHOW AND MICHAEL D. DEAN,
Petitioners,

v.
STATE BAR OF WISCONSIN, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 3rd day of April, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the RESPONDENTS’ BRIEF IN OPPOSITION TO PETITION FOR
CERTIORARI in the above entitled case. All parties required to be served have been served by third-party commercial
carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
ROBERTA F. HOWELL
COUNSEL OF RECORD
FOLEY & LARDNER LLP
150 East Gilman Street
Madison, WI 53703
608.257.5035
thowell@foley.com
Counsel for Respondents

Subscribed and sworn to before me this 3rd day of April, 2020. |
I am duly authorized under the laws of the State of Nebraska to administer oaths.

: GENERAL MOTARY-State of Webrasia Oude
My Comm. Exp. September 5, 2023

Notary Public Affiant IAAT

   
SERVICE LIST

David B. Rivkin

BAKER & HOSTETLER LLP
1050 Connecticut Ave., N.W.
Washington, D.C. 20036
(202) 861-1731 (phone)

(202) 861-1783 (fax)
drivkin@bakerlaw.com

Attorney for Adam Jarchow and Michael D. Dean

4813-6574-3030.1
